 USE OF CONTRACT AUTHORITY FOR DISTRIBUTION DEPOTS
          BY THE DEFENSE LOGISTICS AGENCY

Report No. D-2001-099                      April 16, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or FAX
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DFAS                 Defense Finance and Accounting Service
DLA                  Defense Logistics Agency
DWCF                 Defense Working Capital Fund
OMB                  Office of Management and Budget
USD (Comptroller)    Under Secretary of Defense (Comptroller)
                              INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                        April 16, 2001
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                (COMPTROLLERKHIEF FINANCIAL OFFICER)
SUBJECT: Audit Report on the Use of Contract Authority for Distribution Depots by
         the Defense Logistics Agency (Report No. D2001-099)

      We are providing this audit report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore no additional comments are
required.
       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. James L. Kornides at (614) 751-1400, extension 11,
(jkornides@dodig.osd.mil) or Mr. Stuart D. Dunnett at (614) 75 1-1400, extension 14,
(sdu~ett@dodig.osd.mil).See Appendix B for the report distribution. The audit team
members are listed inside the back cover.


                                         ll~,.b-".-? kLL.J&
                                        Thomas F. Gimble
                                              Acting
                                 Deputy Assistant Inspector General
                                           for Auditing
                        Office of the Inspector General, DoD
Report No. D-2001-099                                                  April 16, 2001
      (Project No. D2000FJ-0071.01)

             Use of Contract Authority for Distribution Depots
                     by the Defense Logistics Agency

                                  Executive Summary

Introduction. Contract authority is a form of budget authority granted by specific
statutory authority to incur obligations in anticipation of either receipts or an
appropriation of liquidating cash with which to pay the obligations. Because it is used
in advance of appropriations or other funding, it is different from the inherent authority
normally granted to every Government agency, that is, to enter into contracts or
obligations based on available funds. Agencies using contract authority must receive
appropriations or obtain receipts or collections sufficient to liquidate obligations.

The Under Secretary of Defense (Comptroller) is responsible for allocating contract
authority to the activity groups of the Defense working capital fund. The contract
authority is automatically liquidated when reimbursements are reported to the Office of
Management and Budget. Since FY 1992, the Under Secretary of Defense
(Comptroller) has authorized the Defense Logistics Agency (DLA), a part of the
Defense working capital fund, to use contract authority to operate certain business
activities, including its distribution depot activity group, which receives, stores, and
issues stocks of inventory. From FY 1992 through FY 2000, DLA used $12.2 billion
of contract authority of which $1.8 billion was used by the distribution depots.

Objectives. The objective of the audit was to determine whether the Defense Finance
and Accounting Service Columbus consistently and accurately compiled financial data
from field activities and other sources for the financial statements of the DLA. This
part of the audit determined whether the contract authority DLA used for its business
activity groups was properly posted to the accounting records. Additionally, we
determined whether the contract authority was recorded on the distribution depot
accounting records and whether DLA established distribution depot billing rates
sufficient to liquidate the contract authority allocated to the DLA distribution depot
activity group.

Results. From FY 1992 through FY 2000, DLA used $1.8 billion of contract authority
to fund the operations of the DLA distribution depot activity group. However,
accounting information documenting the use of the authority was not posted to the
accounting records of the distribution depot activity group. Additionally, the
distribution depot activity group did not collect enough revenue to cover $1.1 billion of
its prior year disbursements. To offset the shortfall in revenue, the Under Secretary of
Defense (Comptroller) used funds collected by the DLA supply management activity
group to liquidate $1.1 billion in outstanding contract authority that was provided to the
distribution depot activity group. Because the cash deficits at the distribution depots
were eliminated by using cash from the supply management activity group, the
occurrence of deficits was not reflected on financial statements or budget estimates and
did not require management to make further adjustments, including cutting costs or
raising rates at the distribution depots. Additionally, operating results for the
distribution depot and supply management activity groups were distorted.

The audit identified a material management control weakness. Implementing the
recommendations will ensure that the Under Secretary of Defense (Comptroller)
establishes controls over the accounting and reimbursement of contract authority. See
the Finding section for the audit results and Appendix A for a discussion of our review
of the management control program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) modify DoD Financial Management Regulations to ensure that contract
authority is recorded and liquidated at the activity group level. We also recommend
that during the next budget review, the Under Secretary of Defense (Comptroller)
consider the actual cash position of the distribution depot activity group and make
appropriate cash transfers or billing rate adjustments.

Management Comments. The Director of DoD Revolving Funds concurred and stated
that he will review and modify the DoD Financial Management Regulation and make
any required changes to ensure that the policy on the use of contract authority is clear
and that the procedures are specified. He also concurred with the recommendation to
consider the actual cash position of the Distribution Depot activity group and make
appropriate cash transfers or billing rate adjustments during the next budget cycle. A
discussion of management comments is in the Finding section of the report and the
complete text in the Management Comments section.




                                            ii
Table of Contents

Executive Summary

Introduction
     Background                                                             1
     Objectives                                                             1

Finding
     Controls Over Defense Logistics Agency Stock Fund Contract Authority   3


Appendixes
     A. Audit Process
         Scope                                                               9
         Methodology                                                         9
         Management Control Program Review                                  10
         Prior Coverage                                                     11
     B. Report Distribution                                                 12

Management Comments
     Under Secretary of Defense (Comptroller)                               15
Background
     Before FY 1991, the Military Departments and the Defense Logistics Agency
     (DLA) operated their own distribution depots using direct Operation and
     Maintenance appropriations. In FY 1992, the Under Secretary of Defense
     (USD) (Comptroller), consolidated most distribution depot operations under the
     DLA distribution depot activity group.

     The DLA distribution depot activity group is currently a part of the Defense
     working capital fund (DWCF). The distribution depots operate primarily on
     reimbursements earned from the Military Departments and DLA supply
     management activity groups for materiel received and shipped, storage space
     occupied, and reimbursable funding provided by inventory managers or local
     organizations for special project work. Inventory control points include these
     costs in surcharges applied to sales of materiel they manage. These rates are
     developed and submitted as part of an agency's budget formulation process and
     are to be established at levels sufficient to recover the costs of products or
     services. During FY 2000 the distribution depots collected $1.5 billion in
     revenue for warehousing services.

     The Defense Finance and Accounting Service (DFAS) Columbus provides
     accounting support for the DLA distribution depot activity group. DLA is
     responsible for budget formulation, presentation, and execution for five DLA
     activity groups: supply management, distribution depots, Defense Reutilization
     and Marketing Service, and Defense Automated Printing Service.

     Contract authority is a form of budget authority granted by Congress that
     permits contracts or other obligations to be entered into in advance of an
     appropriation or in excess of amounts otherwise available in a working capital
     fund. Contract authority is distinguished from the inherent authority to enter
     into contracts possessed by every Government agency based on the availability
     of funds. The USD (Comptroller) is responsible for allocating stock fund
     contract authority to the activity groups of the Defense working capital fund.
     The contract authority is automatically liquidated at the summary Defense
     working capital fund level. Since FY 1992, the USD (Comptroller) has
     authorized the DLA to use contract authority to operate certain business
     activities, including its distribution depot activity group, which receives, stores,
     and issues stocks of inventory.

Objectives
     The objective of the audit was to determine whether DFAS Columbus
     consistently and accurately compiled financial data from field activities and
     other sources for the financial statements of the DLA. This part of the audit
     determined whether the contract authority DLA used for its business activity
     groups was properly compiled and posted to the accounting records.


                                           1
Additionally, we determined whether the contract authority was recorded on the
distribution depot accounting records and whether DLA established distribution
depot billing rates sufficient to liquidate the contract authority allocated to the
DLA distribution depot activity group.




                                     2
           Controls Over Defense Logistics Agency
           Stock Fund Contract Authority
           From FY 1992 through FY 2000, DLA used $1.8 billion of contract
           authority to fund the operations of the DLA distribution depot activity
           group. However, accounting information documenting the use of the
           authority was not posted to the accounting records of the distribution
           depot activity group. Additionally, the distribution depot activity group
           did not collect enough revenue to cover $1.1 billion of prior year
           disbursements. To offset the shortfall in revenue, the USD
           (Comptroller) used funds collected by the DLA supply management
           activity group to liquidate $1.1 billion in contract authority that was
           provided to the distribution depot activity group. The action by the USD
           (Comptroller) was taken because procedures had not been established to
           account for use of contract authority at the activity group level and
           billing rates for the distribution depots did not cover operating costs.
           Because the cash deficits at the distribution depots were eliminated using
           cash from the supply management activity group, the occurrence of
           deficits was not reflected on financial statements or in budget estimates
           and did not require management to make further adjustments, including
           cutting costs or raising rates at the distribution depots. Additionally,
           operating results for the distribution depot and supply management
           activity groups were distorted.

Legal and Regulatory Guidance
    Section 2210(b), title 10, United States Code (U.S.C.) provides a statutory basis
    for DoD to use unfunded contract authority to operate stock funds. Specifically,
    the law allows DoD to incur obligations against anticipated reimbursements to
    stock funds in such amounts and for such periods as the Secretary of Defense,
    with the approval of the President, may determine to be necessary to maintain
    stock levels consistent with planned operations for the fiscal year.

    Office of Management and Budget Guidance. Office of Management and
    Budget (OMB) Circular A-34, 1999, provides instructions and guidance to
    agencies concerning apportionment and budget execution requirements. The
    Circular defines contract authority as specific statutory authority to incur
    obligations in anticipation of either receipts or an appropriation of liquidating
    cash with which to pay the obligations. The Circular also requires agencies to
    report contract authority on the Standard Form 132 “Apportionment and
    Reapportionment Schedule,” and Standard Form 133 “Report on Budget
    Execution.”




                                         3
     OMB apportions contract authority based upon SF 132 schedules submitted by
     the USD (Comptroller) for the Defense working capital fund. The SF 132
     schedules require the apportioned contract authority to be automatically reduced
     when liquidating collections are made. DFAS Columbus compiles contract
     authority and liquidating collections to SF 133 reports for each DLA activity
     group.

     DoD Policy. DoD Regulation 7000.14-R, the “DoD Financial Management
     Regulation,” volume 3, “Budget Execution - Availability and Use of Budgetary
     Resources,” September 2000, defines the distribution depot activity group as a
     supply-type operation that can be provided contract authority (the definition was
     included in the December 1996 version of the Regulation). Volume 3 authorizes
     supply-type activity groups to use stock fund contract authority as a basis for
     operating authority. The Regulation states that the USD (Comptroller)
     Revolving Funds Directorate will review budget execution on a monthly basis.

Use of Contract Authority by Distribution Depots
     Most revenue for the distribution depot activity group consists of payments from
     customers for items received and shipped, storage space occupied, and
     reimbursable funding provided by inventory managers or local activities for
     special project work. Inventory control points include these costs in surcharges
     applied to sales of materiel they manage. These rates are developed and
     submitted as part of the agency’s budget formulation process and are to be
     established at levels sufficient to recover the costs of products or services.

     The DLA distribution depots used contract authority with the expectation that
     the depot activity group would reimburse the authority with revenue it earned
     through its working capital fund. The Defense Logistics Agency’s distribution
     depot activity group used contract authority five times since FY 1992, when it
     began operating as a working capital fund.

     Approximately $1.8 billion of contract authority was used over the 6 years from
     FY 1992 to FY 1997. However, the distribution depot activity group was able
     to reimburse only approximately $679 million with surplus collections earned
     during FYs 1993, 1999, and 2000. The amounts provided were displayed in
     budget reports, specifically SF 133s.




                                         4
    Table 1 shows the contract authority provided to the DLA distribution depots
    and the amounts the depots reimbursed.

                     Table 1. Stock Fund Contract Authority
                     for the Distribution Depot Activity Group
                                          Contract            Contract Authority
                                          Authority            Reimbursed With
                 FY                      Provided             Depot Collections1
                 1992                 $ 516,921,391             $              0
                 1993                              0               346,835,337
                 1994                    77,753,918                            0
                 1995                   247,611,660                            0
                 1996                   485,441,893                            0
                 1997                   451,948,567                            0
                 1998                              0                           0
                 1999                              0                243,408,301
                 2000                              0                 88,918,755

                 Total               $1,779,677,429                $679,162,393

             1
                 These are the amounts of the cash surpluses reported on SF 133 reports
                 for FYs 1993, 1999, and 2000. Cash deficits were incurred in the
                 other years (see Table 2).




Recording Use of Contract Authority
    DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
    volume 11B, “Reimbursable Operations, Policy and Procedures - Defense
    Business Operations Fund,” December 1994, provides guidance on the use of
    stock fund contract authority by the supply management activity groups of the
    Defense working capital fund. The Regulation provides accounting entries at
    the DWCF level related to anticipated, realized, and liquidated contract
    authority transactions.

    DFAS Columbus did not post entries for the $1.8 billion of the stock fund
    contract authority that it reported on the distribution depot budget execution
    reports (SF 133s) from FY 1992 through FY 2000. DFAS Columbus was
    following OMB guidance and compiling contract authority and liquidating
    collections in SF 133 reports for each DLA activity group, but it was not
    recording the use or reimbursement of the authority in the accounting records.

    When we asked DFAS Columbus to provide accounting entries regarding the
    use and liquidation of the $1.8 billion in contract authority, DFAS Columbus
    personnel told us that the journal entries were not recorded because contract
    authority was approved and automatically liquidated at the DWCF level.

                                                 5
    We reviewed DoD Regulation 7000.14, volume 11B, and confirmed that it does
    not require accounting entries to be made on activity group records for DWCF
    stock fund contract authority. As a result of this policy, no accounting entries
    were recorded for any of the contract authority provided to the DLA distribution
    depots.

    We believe that the accounting policy needs to require accountability records to
    be maintained at the activity group level. If adequate accounting procedures had
    been in place, the shortages in revenue of the distribution depots would have
    been clearly evident to senior DoD management during budget deliberations and
    on DLA financial statements. Additionally, the distribution depots’ difficulty
    with earning enough revenue to liquidate the contract authority used may have
    caused management to focus on changes needed in the DLA business strategies.

Reimbursement of Contract Authority Used
    The distribution depots did not earn enough revenue from providing warehouse
    services to liquidate $1.1 billion of the $1.8 billion in contract authority.
    Specifically, the distribution depots raised rates high enough to reimburse only
    $679.2 million of $1.8 billion in contract authority first used in FY 1992.
    DFAS records showed that the USD (Comptroller) used funds collected by the
    DLA supply management activity group to liquidate the remaining $1.1 billion
    in contract authority. However, the $1.1 billion transfer of funds was never
    recorded on activity group accounting records.

    The distribution depot activity group used the $1.8 billion in stock fund contract
    authority to continue operating even though the activity group accumulated a
    cash deficit for FYs 1992 through 2000. According to SF 133 reports, the
    distribution depot cash deficit totaled $1.1 billion during the 9 years that the
    activity group operated as part of a working capital fund (see Table 2).

                    Table 2. Cash Deficit for the Distribution Depots
                                FY 1992 through FY 2000
                                                               Reported Surplus
       FY               Collections        Disbursements            or Deficit
       1992         $     95,063,357 $      862,039,633      $ (766,976,276)
       1993           1,495,176,844       1,148,341,506           346,835,338
       1994           1,330,429,117       1,563,204,328          (232,775,211)
       1995           1,266,313,073       1,594,191,876          (327,878,803)
       1996           1,708,003,496       1,715,448,165              (7,444,669)
       1997           1,279,364,415       1,567,967,443          (288,603,028)
       1998           1,266,791,086       1,451,265,487          (184,474,401)
       1999           1,517,837,825       1,274,429,524            243,408,301
       2000           1,541,059,662       1,452,140,907              88,918,755
       Total        $11,500,038,875    $12,629,028,869        $(1,128,989,994)


                                        6
   Reimbursable Rates. DoD Regulation 7000.14-R, the “DoD Financial
   Management Regulation,” volume 2B, “Budget Formulation and Presentation,”
   June 2000, establishes two categories of activity groups for rate setting
   purposes: “supply management” activity groups, and “non-supply management”
   activity groups. Volume 2B categorizes distribution depots as a non-supply
   management activity group. DoD Regulation 7000.14-R requires both activity
   groups to set prices to either make up actual or projected losses or to return
   actual or projected gains in the budget year(s). DoD Regulation 7000.14-R
   requires the supply management activity group to include in its surcharge the
   costs of reimbursing the distribution depots for their operating costs.

   DLA activity groups recover their costs through reimbursable customer orders.
   Cost recovery rates are developed jointly by the USD (Comptroller) and DLA
   and approved by the Deputy Secretary of Defense. Budget documents showed
   that distribution depot rates were raised for FYs 1998 and 1999. However,
   distribution depot rates were not raised sufficiently to eliminate the $1.1 billion
   cash deficit as required by DoD regulations.

   DFAS records indicate that the outstanding $1.1 billion of contract authority
   used by the distribution depots was liquidated by the USD (Comptroller) at the
   DWCF-level using reimbursements earned by the DLA supply management
   activity group. However, DLA personnel stated that DLA did not authorize the
   transfer of the funds from the DLA supply management activity group to the
   distribution depot activity group and, therefore, a $1.1 billion cash deficit
   remained recorded on distribution depot accounting records.

   During the next budget cycle, the USD (Comptroller) should either officially
   authorize $1.1 billion in prior-year transfers to the distribution depot activity
   group from the supply management activity group or adjust billing rates.

Summary
   From FY 1992 to FY 2000, the DLA distribution depot activity group did not
   collect enough revenue to cover $1.1 billion of its disbursements. This occurred
   because the billing rates that were established to cover distribution depot costs
   proved to be inadequate and were not sufficiently adjusted during budget
   reviews. The distribution depot activity group continued to operate using
   contract authority while accumulating large cash deficits, and funds from the
   supply management activity group were used to liquidate the distribution depots’
   contract authority. The accounting transactions for these transfers of cash were
   not posted to the accounting records, and rates for the depots were not raised for
   the amounts of the transfers. USD (Comptroller) personnel believed that
   management and accounting for all activity groups at the summary level was all
   that was needed. We believe this level of management and accounting was not
   adequate. The distribution depot activity group was established as a stand-alone
   entity. All accounting events that affect it should be posted and adequate fees
   should be charged to customers to make it a viable business concern. Without


                                         7
    those types of changes, the distribution depot activity group will not meet the
    principal goal established for a working capital fund activity group, which is to
    operate efficiently enough to break even over the long term.



Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller):


        a. Modify DoD Regulation 7000.14-R, the “DoD Financial Management
    Regulation,” volume 11B, “Reimbursable Operations, Policy and
    Procedures – Defense Business Operations Fund,” December 1994, to
    include procedures that require that all use of contract authority is
    adequately posted and liquidated in the DoD working capital fund
    accounting records at the activity group level.

    Management Comments. The Director of DoD Revolving Funds concurred
    stating that he will review and modify the DoD Financial Management
    Regulation and make any required changes to ensure the policy on the use of
    contract authority is clear and procedures are specified.

       b. Consider the actual cash position of the distribution depot activity
    group and make appropriate cash transfers or billing rate adjustments
    during the next budget cycle.

    Management Comments. The Director of DoD Revolving Funds concurred.




                                        8
Appendix A. Audit Process

Scope and Methodology
    Work Performed. This audit resulted from tests of compliance with laws and
    regulations on Project No. D2000FJ-0071, “Audit of the Compilation of DLA
    FY 1999 Financial Statements.”

    We determined whether distribution depot contract authority was liquidated in
    accordance with applicable laws and regulations. We also reviewed the
    adequacy of internal controls over $1.1 billion in DLA contract authority.
    Specifically, we determined whether DLA and the DFAS Columbus authorized,
    posted, and documented contract authority provided to the DLA distribution
    depot activity group. We reviewed SF 132 schedules and SF 133 reports as
    available from FY 1992 through FY 2000. Specifically, we completed an
    analysis of $11.5 billion in distribution depot collections and $12.6 billion in
    distribution depot disbursements.

    Use of Computer-Processed Data. We analyzed DLA budget execution
    reports for FYs 1992 through 2000. We analyzed the data to determine the
    amount of contract authority that was reported for the DLA distribution depot
    activity group and to determine the amounts that had been liquidated.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goals, and performance measures.

         •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
             future by pursuing a focused modernization effort that maintains U.S.
             qualitative superiority in key warfighting capabilities. Transform the
             force by exploiting the Revolution in Military Affairs, and reengineer
             the Department to achieve a 21st century infrastructure.

         •   (01-DoD-2) FY 2001 Subordinate Performance Goal 2.3:
             Streamline the DoD infrastructure by redesigning the Department’s
             support structure and pursuing business practice reforms (01-DoD-2.3).

         •   FY 2001 Subordinate Performance Goal 2.5: Improve financial and
             information management. (01-DoD-2.5)

         •   FY 2001 Performance Measure 2.3.8: Use net operating results to
             ensure that Defense working capital funds break even over the long
             term. (01-DoD-2.3.8.)


                                        9
         •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
             on financial statements. (01-DoD-2.5.2.).

    General Accounting Office High-Risk Area. The General Accounting Office
    had identified several high-risk areas in the DoD. This report provides
    coverage of the financial management high-risk area.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from May 2000 through January 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    DLA and DFAS management controls over the stock fund contract authority
    that was used by the distribution depot activity group since FY 1992.

    Adequacy of Management Controls. We identified materiel management
    control weaknesses for DoD, as defined by DoD Instruction 5010.40. DoD
    management controls were not adequate to ensure that distribution depot activity
    group contract authority transactions were posted to the accounting records.
    This occurred because the USD (Comptroller) did not issue procedures to
    require accountability at the activity group level. The recommendations, if
    implemented, will allow the USD (Comptroller) to improve visibility and
    control of contract authority.

    Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
    would not identify controls over contract authority and make them an assessable
    unit because the USD (Comptroller) had not issued procedures. Therefore,
    DLA and DFAS Columbus did not report the material management control
    weaknesses identified during the audit.




                                       10
Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                     11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget




                                           12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Governmental Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         13
Under Secretary of Defense (Comptroller)
Comments




                   15
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
James L. Kornides
Stuart D. Dunnett
Curt W. Malthouse
John R. Williams
